NOS. 19-368,19-369

In the
Supreme Court of the United States
FORD MOTOR COMPANY,

Petitioner,
v.
MONTANA EIGHTH JUDICIAL DISTRICT COURT, ET AL.,

Respondents.
__________________________

FORD MOTOR COMPANY,

Petitioner,
v.
ADAM BANDEMER,

Respondent.
__________________________

On Writs of Certiorari to the
Supreme Court of Montana and the Supreme Court of Minnesota
BRIEF OF AMICUS CURIAE
THE CENTER FOR AUTO SAFETY
IN SUPPORT OF RESPONDENTS
JASON LEVINE
EXECUTIVE DIRECTOR
CENTER FOR AUTO SAFETY
1825 CONNECTICUT AVE. N.W.
WASHINGTON, D.C. 20009-5708

LARRY E. COBEN

COUNSEL OF RECORD

ANAPOL WEISS
8700 E. VISTA BONITA DRIVE,
SUITE 268
SCOTTSDALE, AZ 85255
(480) 515-4745
LCOBEN@ANAPOLWEISS.COM
COUNSEL FOR AMICUS CURIAE

APRIL 3, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICUS CURIAE ............................ 1
WHY THE CENTER FOR AUTO SAFETY HAS
FILED THIS BRIEF ................................................... 3
SUMMARY OF THE RELEVANT POLICY
ARGUMENTS .......................................................... 6
ARGUMENT ............................................................... 9
THE ESSENTIAL ELEMENTS WARRANTING
SPECIFIC JURISDICTION ..................................... 10
A REASONABLE DEFINITION OF THE PREDICATE FOR SPECIFIC JURISDICTION ................ 16
CONCLUSIONS ....................................................... 18

ii
TABLE OF AUTHORITIES
Page
CASES

Asahi Metal Industry Co. v. Superior Court of
Cal, 480 U.S. 102, 107 S.Ct. 1026,
94 L.Ed.2d 92 (1987) ................................... 11, 15

Bristol-Myers Squibb Co.,
137 S.Ct. 1773 (2017) .................................... 14, 16

Burger King Corp. v. Rudzewicz,
471 U.S. 462 (1985) ............................................ 10

Calder v. Jones,
465 U.S. 783, 104 S.Ct. 1482,
79 L.Ed.2d 804 (1984) ....................................... 11

Center for Auto Safety v. Lewis,
685 F.2d 656 (D.C. Cir. 1982) .............................. 2

Center for Auto Safety v. National Highway
Safety Admin., 793 F.2d 1322 (1986) ................. 2
Center For Auto Safety v. Volkswagen AG, et al.,
Case No. 1:15 CV-1356
(U.S.D.C. E.D.VA. 2015) ..................................... 2

Daimler v. Bauman,
134 S.Ct. 746 (2011) ........................................... 10

Hanson v. Denckla,
357 U.S 235 (1958) ........................................... 13

Keeton v. Hustler Magazine, Inc.,
465 U.S. 770, 104 S.Ct. 1473,
79 L.Ed.2d 790 (1984) ....................................... 11

Pennzoil Prods. Co., v. Colelli & Associates,
149 F.3d 197 (3rd Cir. 1998) ............................. 12

iii
TABLE OF AUTHORITIES—Continued
Page

Robinson v. Giarmarco & Bill, P.C.,
74 F.3d 253 (11th Cir. 1996) ............................. 12

Vermeulen v. Renault, U.S.A., Inc.,
985 F.2d 1534 (11th Cir. 1994) ......................... 15

World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286, 100 S.Ct. 559,
62 L.Ed.2d 490 (1980) ....................... 9, 11, 13, 14
STATUTES
Sup. Ct. R. 37.6 ............................................................ 1
OTHER AUTHORITIES
autodealertodaymagazine.com/310099/bestpractices-to-market-used-inventory-online ........ 7
Edmunds.com/car-buying/the-pros-and-cons-of-adealer-trade.html. ................................................. 7
http://www.cnbc.com/2014/01/09/global-autosales-hit-record-high-of-828-million.html .......... 7
http://www.worldwatch.org/node/810......................... 6

Long-Arm Statutes: A Fifty-State Survey,

euro.ecom.cmu.edu/program/law/08732/Jurisdiction/LongArmSurvey.pdf ................ 8
TABLE OF AUTHORITIES

1

INTEREST OF AMICUS CURIAE
This Amicus brief is submitted on behalf of THE
CENTER FOR AUTO SAFETY (CAS) in support of the
Respondents.1 The issue raised in this appeal has
significant jurisprudential implications for every
consumer who purchases and uses motor vehicles
throughout the United States.
The CAS was established in 1970 by Ralph
Nader and the Consumers Union and it is an outgrowth
of the “Corvair” scandal. After that ordeal, “Nader
realized that his singlehanded, sporadic monitoring
of the auto industry would be ineffective.” Thus, he
and the union created the Center as an independent
(but affiliated) organization “to keep a sharp eye on
the National Highway Safety Bureau” (Acton and
LeMond, 1972, p. 69) by lobbying, researching, and
litigating as necessary. Today, the Center is independent of both Nader and the Consumers Union, but the
Center’s original goals remain: to work for improved
vehicle highway safety, reliability, and fuel economy.
While these basic tenets reflect its founders’ original
purposes, the Center itself has grown tremendously.
Employing a small full-time staff, CAS has reached
more than 10,000 members and supporters and is
funded by individual contributions and grants. CAS is
a nonprofit research and advocacy organization which
provides a public voice for auto safety. Our mission is
to improve the safety, efficiency, reliability and cost
1 Pursuant to Sup. Ct. R. 37.6, no part of this brief was authored
by counsel for any party, and no person or entity other than the
amicus curiae made any monetary contribution to the preparation
or submission of the brief.

2
to the consumer of vehicles, which explicitly demands
that we do what we can to help reduce motor vehicle
deaths, injuries and crashes. These goals often cause
the Center to furnish testimony before Congressional
oversight committees and sponsor independent analysis
of pending safety legislation, government safety
regulations and public health issues arising because
of mistakes in the marketing of unsafe vehicles. To
this end, the Center has also been involved in several
lawsuits, challenging decisions of the Secretary of
Transportation and the National Highway Traffic
Safety Administration (NHTSA). Examples of the
Center’s public health advocacy include: Center for
Auto Safety v. National Highway Safety Admin., 793
F.2d 1322 (1986), in which the Center challenged an
administrative rule involving fuel economy; Center
for Auto Safety v. Lewis, 685 F.2d 656 (D.C. Cir. 1982),
asking a federal court to examine the Secretary of
Transportation’s settlement “of a safety investigation
concerning 23 million Ford vehicles”; and, Center For
Auto Safety v. Volkswagen AG, et al., Case No. 1:15
CV-1356 (U.S.D.C. E.D.VA. 2015), seeking injunctive
relief against these car companies for defrauding
consumers by manipulating EPA tests intended to
restrict vehicle emissions.
In addition to its direct sponsorship activity, the
Center occasionally participates as an amicus curiae,
when the issue relates directly to the relationship
between vehicle safety, consumer protection and the
role of the civil justice system in facilitating these
goals. The safety of the design of motor vehicles is
dependent, in part, upon allowing the American Civil
Justice System to monitor when injury occurs because
of poor design decisions and providing the injured

3
consumer access to our court system to allow jurors
to decide whether compensation is warranted. The
CAS appears as Amicus to explain the importance of
keeping open the courthouse doors for citizens of
every state where multi-national manufacturers market
and sell their motor vehicles—and derive huge financial
benefits. Until recently, vehicle manufacturers like
Ford Motor Company did not challenge the jurisdiction
of courts to preside over personal injury and wrongful
death cases filed in the forum state where the harm
occurred and the Plaintiff resides.

WHY THE CENTER FOR AUTO SAFETY
HAS FILED THIS BRIEF
Your Amicus has prepared and respectfully
submits this Brief to explain why this Honorable
Court should not reverse the decisions below and,
just as importantly, the Court should once and for all
acknowledge, approve and authorize courts of general
jurisdiction to exercise jurisdiction over business
entities that enjoy the marketing of their “transferrable” products in each of the fifty states and,
therefore, should be subject to civil liability in the
forum where the injury occurred because: (a) the
defendant has marketed the product to be used
across state borders, (b) the plaintiff resides in the
forum, (c) the plaintiff used or suffered harm in the
forum because of a flaw in the product, (d) the
plaintiff incurred costs of care and other losses in the
forum, (e) and it is most convenient to litigate the
claim in the forum-regardless of the marketing methods

4
which caused the product to end-up in that forum
state.
Every American citizen has the right to access
the courts of his or her home state to rectify wrongs
committed by corporations that distribute unsafe
motor vehicles throughout the United States. Denial
of access to the consumer’s home state court system
will create havoc-because it will compel consumers to
bring lawsuits far away from home and deprive our
citizenry of the right to fair compensation for harm
suffered in the forum.
As your Amicus will explain, if the Plaintiffs are
denied the right to sue Ford Motor Company in the
State where the defendant’s product caused harm,
then not only will forum predictability be obliterated,
but the finely balanced jurisprudential rules relied
upon by all Americans to meter civil justice will be
undeniably destroyed. The test for specific jurisdiction
and the alternative test Ford seeks would substantively
alter or significantly implicate many substantive and
procedural aspects of the civil justice system, including
these:
1.

The consumer harmed by the product will
not be able to bring one lawsuit for the harm
caused and join all responsible parties to that
litigation—to avoid duplicative and potentially inconsistent results and to comply with
statutory apportionment law in most jurisdictions.

2.

If the product manufacturer is not amenable
to suit, then the financial burden will fall upon
retailers alone—an outcome unintended in
more than 50% of the states today, which

5
have enacted laws to immunize retailers when
the manufacturer is subject to the court’s
jurisdiction.
3.

Absent recovery in the State where the harm
occurred, the consumer victim may not
bring suit, thereby depriving the State and
Federal medical aid funds from recovering
the monies they have paid (i.e., medical liens)
for the care and treatment of the victims of
product neglect.

4.

Forum shopping will arise in an unparalleled
fashion: product manufacturers will produce
and deliver their products to either their
“home state” or to other states that enact
pro-business laws limiting liability.

5.

Courts which under Ford’s jurisdictional test
have authority to hear cases will undoubtedly
confront and grant dismissals or transfers to
other venues based upon forum non conveniens.

6.

Foreign corporations, venued outside the
United States, will remove all interaction
with the U.S. in marketing their products to
avoid jurisdiction and liability.

Every American citizen must have the right to
access the courts of his or her home state to rectify
wrongs committed by corporations that mass-produce
and distribute unsafe products throughout the United
States. Denial of access to the consumer’s home state
court system would create havoc, eliminate the
predictability of our civil justice system and deprive
our citizenry of the right to fair compensation for
harm suffered. There is a need for a more balanced

6
approach to the test of specific jurisdiction when a
single citizen suffers injury because of a flaw in a
mass-produced product marketed in every state.

SUMMARY OF THE
RELEVANT POLICY ARGUMENTS
Your Honors’ Amicus Curiae respectfully submits
that fair play requires that (a) when harm arises in a
state from the use of a motor vehicle, then (b) out-ofstate “foreign” manufacturers who enjoy the profits
of marketing their products across this country and
obtain substantial income derived from the regular
and continuous sale of their products in a forum
State, (c) should be subjected to the same jurisdictional
authority of the courts of that state as that allowed
over those who manufacture their products in-state
or who directly deliver their products in state. Any
other outcome will either immunize out of state
companies from liability or create a huge disparity
between in-state and out-of-state manufacturers.
Further, the outcome sought by Ford will force every
consumer harmed by an out-of-state made or marketed
(flawed) product to seek compensation only if they
are willing to leave the State and find the forum in
which the manufacturer first distributed or released
the product into the stream of commerce. That result
will cause havoc amongst our citizenry.
While the United States of America has less than
5% of the world’s population2, the United States and
2 http://www.worldwatch.org/node/810

7
China are the world’s two largest auto markets.3
Every major car manufacturer in the world markets
its products in the U.S. and most manufacturers do so
through a network of corporations with headquarters
overseas or in one specific state, and then they use a
nationwide distribution process to ship their products
to every state in the country. This sales distribution
system has worked quite well, allowing companies
like Ford Motor Company to design their products in
several venues including Dearborn, Michigan. Then,
once the design phases are completed, Ford assigns
the manufacturing/assembly tasks to its assembly
plants across the U.S., Mexico and Canada. Once
manufactured, Ford directs the shipping of its products
to markets in virtually every state in the Union and
around the world. The record in this case illustrates
this marketing process. And, once delivered by the
manufacturer or its agent to a particular market/
dealership network, the Ford authorized retailer is
free to sell the vehicle to either a consumer in that
forum—regardless of the consumer’s actual home state
—or to transfer that product to another dealership
anywhere in the United States—known as a “dealer
trade”. See, Edmunds.com/car-buying/the-pros-andcons-of-a-dealer-trade.html. Further, vehicle marketing
across state lines is a huge profit center for used
vehicle sales. Most dealerships obtain twice as much
gross profit from used vehicle sales than from new
unit sales. See, autodealertodaymagazine.com/310099/
best-practices-to-market-used-inventory-online.

3 http://www.cnbc.com/2014/01/09/global-auto-sales-hit-recordhigh-of-828-million.html

8
We respectfully submit that these marketing
dynamics make the resolution of the issue of specific
jurisdiction over Ford Motor Company very different
from the issue of jurisdiction decided by this Court in
other types of litigation. In the instant case, Ford
argued to the trial court and it renews the argument
here that prior decisions of this Honorable Court and
jurisprudential principles of law require reversal
because courts may not exercise specific jurisdiction
over an out-of-state corporation doing continuous and
substantial business in the forum state unless the
product injuring or killing the Plaintiff’s decedent
was delivered by Ford directly to the forum State.
That argument flies in the face of the statutory
jurisdictional laws of all 50 states. Virtually every
state has enacted laws—consistent with this Court’s
teachings—allowing that when a defendant’s misconduct arising outside the forum state leads to
tortious injury or damage in this state, then proof
that the corporate entity regularly does or solicits
business, or engages in any other persistent course of
conduct or derives substantial revenue from goods
used or consumed or services in the forum state,
warrants specific personal jurisdiction over it. E.g.,
Long-Arm Statutes: A Fifty-State Survey, euro.ecom.
cmu.edu/program/law/08-732/Jurisdiction/LongArm
Survey.pdf.
The Complaint in this case and the evidence
presented to the trial court demonstrated that Ford
Motor Company markets its vehicles for sale and use
in all 50 states, that Ford delivers thousands of its
products to the forum states every year, that Ford
understands that its vehicles will be owned and
operated in all 50 states regardless of the state in

9
which it is originally sold and that Ford relies upon
the mobility of its products to enhance its market
share. Ford was well aware that any one of its vehicles
will be operated on the roads in the forum regardless
of the state in which it was sold. That inevitable use
is precisely the predicate for specific jurisdiction first
recognized by the U.S. Supreme Court in World-Wide
Volkswagen Corp. v. Woodson, 444 U.S. 286, 297, 100
S.Ct. 559, 62 L.Ed.2d 490 (1980): (‘[I]f the sale of a
product of a manufacturer or distributor such as Audi
or Volkswagen is not simply an isolated occurrence,
but arises from the efforts of the manufacturer or
distributor to serve, directly or indirectly, the market
for its product in other States, it is not unreasonable
to subject it to suit in one of those States if its
allegedly defective merchandise has there been the
source of injury to its owner or to others.”

ARGUMENT
The predicate for specific personal jurisdiction
over Ford Motor Company must continue to be based
upon two interrelated conditions: the predictable use
of the product in the forum in question and that the
harm was suffered in the forum state. When the
defendant’s product is used in the forum state while
in a defective condition (that existed when it was
first released into the stream of commerce) then the
tort has “arisen out of or relates to” the defendant’s
activities. The location of the sale is not the controlling
factor, nor should it be a controlling determinate.
The marketing of its products throughout the US
establishes a predicate for the application of the

10
principles of law that embrace the stream of commerce
jurisprudential logic.

THE ESSENTIAL ELEMENTS
WARRANTING SPECIFIC JURISDICTION
Personal jurisdiction over a non-resident defendant
has been discussed and defined in both state and
federal courts for decades. Essentially, a court has
jurisdiction over a non-resident when the defendant
has enjoyed appropriate contacts with the state
warranting resolution of the legal conflict in that
jurisdiction. To what extent a nonresident defendant
has minimum contacts depends upon the facts of the
individual case. One essential inquiry is whether the
defendant has purposefully acted to obtain benefits
or privileges in the forum state. A state court’s
assertion of personal jurisdiction over a non-resident
defendant is consistent with due process if that
defendant has sufficient minimum contacts with the
forum state, and maintenance of the suit would not
offend traditional notions of fair play and substantial
justice. Burger King Corp. v. Rudzewicz, 471 U.S. 462,
471-72, 476 (1985); Collier v. Land & Sea Rest. Co.
LLC, 2014 U.S. Dist. LEXIS 147118 *20 (D.C. W.Va.
2014) (Specific jurisdiction found against a nationwide
wholesaler of shellfish, which sold its product to a
Massachusetts’ named defendant which it knew marketed the fish throughout the U.S.). Justice Ginsburg
reaffirmed the importance of the “specific jurisdiction”
/stream-of-commerce test” in Daimler v. Bauman, 134
S.Ct. 746, 755, n.7 (2011) by recounting the holdings in
several prior decisions:

11
“ . . . Asahi Metal Industry Co. v. Superior
Court of Cal., Solano Cty., 480 U.S. 102, 112,
107 S.Ct. 1026, 94 L.Ed.2d 92 (1987) (opinion
of O’Connor, J.) (specific jurisdiction may lie
over a foreign defendant that places a product
into the ‘stream of commerce’ while also
‘designing the product for the market in the
forum State, advertising in the forum State,
establishing channels for providing regular
advice to customers in the forum State, or
marketing the product through a distributor
who has agreed to serve as the sales agent
in the forum State’); World-Wide Volkswagen
Corp. v. Woodson, 444 U.S. 286, 297, 100
S.Ct. 559, 62 L.Ed.2d 490 (1980) (‘[I]f the sale
of a product of a manufacturer or distributor such as Audi or Volkswagen is not
simply an isolated occurrence, but arises
from the efforts of the manufacturer or
distributor to serve, directly or indirectly,
the market for its product in other States, it
is not unreasonable to subject it to suit in
one of those States if its allegedly defective
merchandise has there been the source of
injury to its owner or to others.’); Calder v.
Jones, 465 U.S. 783, 789-790, 104 S.Ct. 1482,
79 L.Ed.2d 804 (1984) (California court had
specific jurisdiction to hear suit brought by
California plaintiff where Florida-based publisher of a newspaper having its largest
circulation in California published an article
allegedly defaming the complaining Californian; under those circumstances, defendants
‘must ‘reasonably anticipate being haled
into [a California] court’); Keeton v. Hustler

12

Magazine, Inc., 465 U.S. 770, 780-781, 104
S.Ct. 1473, 79 L.Ed.2d 790 (1984) (New York
resident may maintain suit for libel in New
Hampshire state court against Californiabased magazine that sold 10,000 to 15,000
copies in New Hampshire each month; as
long as the defendant ‘continuously and
deliberately exploited the New Hampshire
market,’ it could reasonably be expected to
answer a libel suit there).” [Emphasis added.]
In the instant case, the record reflects that Ford
products, made by Ford outside the forum states, are
marketed in large volume across the United States
including the forum states and, by their very nature,
cars, trucks and SUVs are sold, resold and transported
every day from state to state. In fact, the Ford
authorized dealership network allows for the exchange
of new vehicles between dealers from state-to-state
to facilitate sales and the management of inventory.
It is a conceded fact in this case that Ford products
are delivered for original sale in one state and that
those same vehicles originally sold in some other
state will inevitably be used in the forum state—
exposing these plaintiffs to harm if they are defective
in design. These facts demonstrate the propriety of
the forum states exercising personal jurisdiction over
Ford. The scope of jurisdictional authority of most
state courts, embedded in their respective “long-arm
rule”, includes a “tort out/harm in” provision. E.g.,
Pennzoil Prods. Co., v. Colelli & Associates, 149 F.3d
197, 201-202 (3rd Cir. 1998); Robinson v. Giarmarco
& Bill, P.C., 74 F.3d 253 (11th Cir. 1996).
Forty years ago, the Supreme Court confirmed
that a forum State does not exceed its powers under

13
the Due Process Clause if it asserts personal jurisdiction
over a corporation that delivers its products into the
stream of commerce with the expectation that they
will be used in all 50 states. Stated otherwise, the
Woodson Court stated: “if the sale of a product of
a manufacturer or distributor such as Audi or
Volkswagen is not simply an isolated occurrence, but
arises from the efforts of the manufacturer or
distributor to serve directly or indirectly, the market
for its product in other States, it is not unreasonable
to subject it to suit in one of those States if its
allegedly defective merchandise has there been the
source of injury to its owner or to others. . . . ” WorldWide Volkswagen Corp. v. Woodson, supra., 444 U.S.
297-98. World-Wide Volkswagen involved a vehicle
made by Audi NSU Auto and which was imported
to the US by Volkswagen of America, Inc., distributed
in New York by World-Wide Volkswagen Corp., sold
in New York by Seaway Volkswagen, Inc., and crashed
in Oklahoma. Id., 444 U.S. at 288, 100 S.Ct. at 562.
The Supreme Court of the United States found these
facts would permit Oklahoma to exercise jurisdiction
over the manufacturer Audi and the importer Volkswagen-but insufficient for the exercise of jurisdiction
over the regional distributor World-Wide or seller
Seaway:
When a corporation “purposefully avails itself
of the privilege of conducting activities
within the forum State,” Hanson v. Denckla,
357 U.S., at 253, 78 S.Ct., at 1240, it has
clear notice that it is subject to suit there,
and can act to alleviate the risk of burdensome litigation by procuring insurance,
passing the expected costs on to customers,

14
or, if the risks are too great, severing its
connection with the State. Id.
Your Amicus submits that there is no reason to
retract the jurisdictional principles articulated in
Woodson, supra. and followed by thousands of courts.
In the case now before the Court, Ford Motor Company
can only prevail if this Court decides to overrule
World-Wide Volkswagen Corp. v. Woodson, supra.
Clearly, the Court has given no reason to overrule
Woodson. In fact, the Dissenting Opinion in BristolMyers Squibb Co., 137 S.Ct. 1773, n. 3 (2017) reminded
us all of the limits in the Majority’s decision, rejecting
the defendant’s request to limit specific jurisdiction
to in-state harm from in-state misconduct, stating:
Bristol-Myers urges such a rule upon us,
Brief for Petitioner 14-37, but its adoption
would have consequences far beyond those
that follow from today’s factbound opinion.
Among other things, it might call into question
whether even a plaintiff injured in a State by
an item identical to those sold by a defendant
in that State could avail himself of that State’s
courts to redress his injuries—a result specifically contemplated by World-Wide Volkswagen Corp., v. Woodson, 444 U.S. 286, 297,
100 S.Ct. 559, 62 L.Ed.2d 490 (1980).
Many years ago, under similar circumstances,
the Eleventh Circuit Court of Appeals found that it
was appropriate to exercise specific jurisdiction over
Renault in the state of Georgia when the Plaintiff
suffered catastrophic injury in Georgia and while
riding in a Renault car marketed and sold as a new
car in North Carolina. Vermeulen v. Renault, U.S.A.,
Inc., 985 F.2d 1534, 1550-51 (11th Cir. 1994), stating:

15
In sum, RNUR designed the Renault LeCar
for the American market, advertised the
LeCar in the United States, established
channels for customers in the United States
to seek advice about the LeCar, and maintained a distribution network by which
LeCars were imported into the United States.
These contacts are sufficiently related to
appellant’s cause of action to confer specific
jurisdiction upon the United States. RNUR’s
activities were inextricable links in the advertising and distribution network by which the
appellant obtained her vehicle, the subject of
this product liability suit. More important,
RNUR directly targeted its LeCars toward the
United States and thus fairly could expect to
defend in this country the very type of action
this case presents: a personal injury action
challenging the car’s design and safety. RNUR
intended its LeCars to be brought to the
United States and took numerous affirmative
steps to bring that result about, and jurisdiction in this country would not violate RNUR’s
due process rights. Because RNUR satisfied
all the criteria identified by the Asahi plurality as indicative of purposeful availment, we
hold that RNUR possessed minimum contacts
with the United States sufficient to satisfy
the first prong of the due process inquiry.

16

A REASONABLE DEFINITION OF THE
PREDICATE FOR SPECIFIC JURISDICTION
The decisions of this Honorable Court have, over
the past 10 years, refined the factors and circumstances
which allow courts to obtain specific jurisdiction over a
product manufacturer. In doing so, your Amicus has
perceived the existence of a conflict between the notion
that the controlling “contact” with the forum is that of
the product manufacturer’s case specific contacts with
the forum and real-world circumstance in which manufacturers employ and enjoy the benefit of nationwide
distribution marketing practices, exposing consumers
across the country to the product’s untoward injury
producing characteristics. For instance, in BristolMyers, supra., while the Court appreciated that the
product manufacturer marketed Plavix in all 50 states,
it nevertheless drew a jurisdictional line between the
forum state and the Plaintiff’s state of use and harm.
The Court found that specific jurisdiction could be
obtained only upon proof that three circumstances
coalescence—the forum was where the: (1) the product
was used, (2) the product was marketed, and (3) the
harm arose. In reaching that conclusion, the Court
admittedly did not address the circumstance here: (4)
the use of the product includes the distribution of the
product to a forum state beyond the state in which the
manufacturer “dropped” it into the stream of commerce.
Your Amicus urges this Honorable Court to either
define the test of specific jurisdiction to include the
circumstances here (including the predictable resale
of the defective product in the forum state where
the defendant conducts continuous and substantial

17
business) or apply a reasoned approach which allows
specific jurisdiction under these facts because any
other result will lead to this predictable harm:
1.

Manufacturers will take steps to identify the
“friendliest forums” and deliver all their
products to that state.

2.

Retailers will then be subject to suit—even
in states with innocent seller statutes—
because the manufacturer will not be subject
to jurisdiction.

3.

Claims for indemnity will have to be resolved
piece meal—only after the resolution of the
injury case and probably in a foreign forum.

4.

Claims against manufacturers cannot be
processed along with the claims against any
other party who contributed to the harm.

5.

Forum state retailers will be obligated to
defend lawsuits ordinarily brought against
manufacturers and then the manufacturer
—like Ford Motor Company—will be obligated
to indemnify and defend the retailer.

6.

Medical providers and insurers who have
liens on these injury claims will lose recovery
rights because the injured consumer will not
pursue the claim in a distant forum.

7.

Apportioning fault will disappear if the manufacturer is not subject to jurisdiction in the
forum state or other tortfeasors are not
subject to jurisdiction in the forum where
the manufacturer must be sued.

18
8.

Questions of dismissal for forum non conveniens will create circular arguments of the
appropriate venue.

CONCLUSIONS
Your Amicus respectfully submits that the Plaintiffs in these case must be allowed to litigate their
claims against the Ford Motor Company in the forum
states where the defective Ford product caused injury,
where the Plaintiff (decedent) lives and where this
defendant has marketed this same vehicle to thousands
of consumers—and obtained untold financial reward
from its marketing practices. To end the jurisdictional
reach of our courts to the State where the defendant
“dropped-off” the vehicle into the stream of commerce
is to ignore the realities of the marketplace. Further,
such a ruling will forever alter the essential legal
balance existent in this country for decades—allowing
consumers to bring suit in their home State to recover
for injuries arising in their home state and leaving
consumers without a reasonable remedy. There is
nothing unpredictable or unfair about obtaining specific
jurisdiction over Ford Motor Company under the facts
here.

19
Respectfully submitted,
LARRY E. COBEN

COUNSEL OF RECORD

ANAPOL WEISS
8700 E. VISTA BONITA DRIVE, SUITE 268
SCOTTSDALE, AZ 85255
(480) 515-4745
LCOBEN@ANAPOLWEISS.COM
JASON LEVINE

EXECUTIVE DIRECTOR
CENTER FOR AUTO SAFETY

1825 CONNECTICUT AVE. N.W.
WASHINGTON, D.C. 20009-5708

COUNSEL FOR AMICUS CURIAE
APRIL 3, 2020

